IN THE SUPREME COURT OF THE UNITED STATES
No. 20-6503
FEBRUARY 12, 2021
GEORGE J RAUDENBUSH III
PETITIONER
v.
BRAIN MILL SAPS, MONROE COUNTY et al.,
RESPONDANTS

ATTENTION CLERK OF THE COURT
Enclosed you will find an Affidavit of Good Faith and New Evidence with attached exhibits A through
H and a Petition for Rehearing with a certificate of service.
Please file the originals with the pink post it notes with the court and time date stamp the copy's with
the green post it notes to be returned in the self addressed and pre-paid postage envelope provided.
Thank you for your sere.

Georg
audenbtish In
2545 oodbine Avenue
Knoxville, Tennessee 37914
standfast4truth@yahoo.com
(865) 228-9170

L

•

FEB 1 261
CLERK

OFCoupt

SUPREME
Sup

In the Supreme Court of the United States
No. 20-6503

AFFIDAVIT OF GOOD FAITH AND NEW EVIDENCE
IN SUPPORT OF PETITION FOR REHEARING
I George J Raudenbush III, affirm the following statements to be true, correct and accurate on this 12th day of
February 2021
GOOD FAITH
My christian faith, spiritual training and good conscious prohibits me from any acts and or behavior that would
harm or injure another intentionally or unintentionally. My being is centered around honesty, fairness, and law
fulness of purpose. I have spent tens of thousands of hours volunteering since my youth in helping others, sery
ing the Supreme Court of Florida as a Guardian Ad Litem, the Catholic Church as a volunteer (host dinners) and
working for the State of Florida in numerous child advocacy programs, see attached documents:
Supreme Court of Florida Guardian Ad Litem Certificate.
Letter from John Royce.
Speaking Up For Children Certificate.
Juvenile Services Program Certificate.
The following individuals have attested to my character:
(a matter is established by two or three wittiness 2 Corinthians 13:1)
Letter from landlord Gene Forrest
Clemency letter from Frank and Debra Smith
Affidavit of Grover D. Cowart
NEW EVIDENCE
On February 2, 2021 at 3:07 pm Attorney Landon M Hickey (BPR # 037143) did contact the petitioner
via phone and then by e-mail. Attorney Landon M. Hickey from the law offices of Banks and Jones did
disclose to the petitioner that his firm represents Sierra Moses, who has a civil case against officer Mill
sap's and Monroe County. The same defendants/respondents in the petitioners case In Raudenbush v.
Monroe County et al. 3:2011cv00625. Attorney Hickey further explained that the reckless misconduct
and actions of Brian Millsap's resulted in the death of Joe Moses and the maiming and disabling of his
Wife Sierra Moses, Mr. Hickeys clients. A copy of Attorney Hickey e-mail is attached for the courts re

1

view, see exhibit (H).
Brian Millsaps has had three civil actions brought against him as a result of misconduct and the use of excessive
force in a 12 year period. In Dillingham v. Millsaps et al. 3:2007cv00214, Raudenbush v. Monroe County et al.
3:2011cv00625, and the most recent case brought by Banks & Jones, Sierra Moses and Joe Moses deceased v.
Brian Millsaps, Monroe County et al, V2100S Civil Circuit Court Monroe County. The above complaints verify
four individuals being severely maimed and injured and a fifth innocent bystander died by the intentional actions
of Millsaps in his official capacity.
Officer Millsaps has been disciplined, suspended and terminated for misconduct by three separate employers; the
Vonore Police Department, the Tellico Plains Police Department and the Monroe County Sheriffs Department.
This court has the power and authority to hear and investigate these facts, and has a compelling interest and responsibility to protect the public from government abuses.
Respectfully submitted by George J. Raudenbush III.

CERTIFICATE OF PRO SE PETITIONER, I hereby certify that this affidavit of good faith and new evidence is presented in good faith in the interest of justice and not for delay.

eorge J. R udenbush III, Petitioner
2545 Woodbine Avenue
Knoxville, TN 37914
(865) 228-9170

ACKNOWLEDGMENT
State of Tennessee
County of Knox
On this 12'=1' day of Fielto"1-1 , 2021, before me personally appeared
tJt.L.40

t.la-rApf putiL(c

to me known to be the person described herein and who executed the fore going
instrument and acknowledged that he/she executed the same as his/her free
act and deed, for the purposes therein set fourth.
Fe ait*AILY Lo 2
c.
ro .40P 5U3SCIUMFP PHIS t

. obt...A4
potes : 1 . S. 202-2
-• A% • 5' le N .0c
17

2

I CER-I1FY THIS TO BE A TRUE
AND ACCURATE COPY OF THE ORIGINAL

BY: etPZ

ourt
COUftz.

=Re tg(tioudit ghat

(

geOrile. ItaliCkii‘USC,111
has eoinpfeted the minimum twining nequiitements 06 the state o6 gTottida
guakdian utd seitem cAtogham and is iteitebg ceittitied to Iteptesent the
best intette,st oi abused and negQected ehiPdtten in Judteid coot phoceedings.

9n witness wiletteoi. this cektiPeate has been issued bg the Mee o6 the State Counts
otdministttatoft and dufg signed this 1
St day o6Febritar

Urfa

' 1991

ucadicm ,Ad galleon etheld

LAdministitalon

ec,
eiheitit

judge

Welty

I CEITHEY THIS TO' BE A TRUE
AND ACCURATE COPY OF THE ORIGINAL
BY:
Protect-6v tit*

Citizen- Consumer

JOHN D. ROYSE CONSUMER ADVOCATEApril 6, 1986

AmitrAARP

Cottrumer Survels,
Consumer dlistseltuutfu .

'Pair

C(C6P1
COMM% CAIW
ACLU Tom( jt nee.

To: Whom It May Concern

E Cinsulwr ataies
Or Column.? rogue
ANSP
,Orteonjit!v
women Vows
4."814g

This is to state that I have known George Raudenbush III for the better
part of the last half-year and had the pleasure of working with' him at the

Host Dinners, a charitable volunteer project to feed the poor and elderly of
downtown St. Petersburg. FL.
During this time I have found Mr. Raudenbush creative, friendly and en..
ergetic and his efforts and personality made a stong impression on the volunteers at the Host Dinners. His moral character is unusual among, many of today's_
youth.

The employer who can best utilize Mr. Raudenbush's talents and experience
will find himself well rewarded for the effort.
Sincerely,.

October 10, 1986
Iam happy to renew my assessment of Mr. Raudenbush's potential.

Sincerely,

EV0g5GT
JOHN D. ROYSE

zreiwit
A 11
SpecLkin9 U.p ror Children
presents

aeo r9e kauden6usch.
this Certificate of Appreciation for outstanding Volunteer Service
to abused children through the auardian ad Litetn Program.
December 6, 1991

,

Speaking Up For Children

z

uardian ad Lit

Tertifirate Of Appreciation
from the

JUVENILE SERVICES PROGRAM, INC.
Presented to
GFORaF _

THIS

28th

DAY OF

IT

APRIL

19 87

It is a privilege to present this certificate in acknowledgment of your contribution to the
betterment of our community.

EXECUTIVE DIRECTOR

CHAIRMAN OF THE BOARD

October 16, 2017
To Whom It May Concern,
I am George Raudenbush's landlord, but also a friend of his for the last three and a half years.
Due to circumstances that I think were created through a miscarriage of justice in the Tennessee legal
system going back to December, 2010, George Raudenbush came to live with me in 2014. Although I
did not know George before 2010, I have reason to believe that the things that happened to him through
the legal system left him partly disabled physically and mentally. It has kept George from being as
productive a citizen as he would like to be due to pain and memory problems.
Many people in our church have helped George since I have known him. George has been a great help
to me in helping make my home a better place to live and to help bring it up to code. George has put in
considerably more than a thousand hours into restoring my home. He asks for nothing and gives so
much back to others, even though he has very little. He often gives what he has to others in need
without expecting anything in return. However his encouragement and love of helping others is
limitless.
George is limited physically due to the head and back trauma he experienced. However, he continues
helping others and volunteering, expecting nothing in return. George often forgets my name, or calls
me by another name, and he forgets the names of other people he has known for many years. I believe
this was caused as the result of the head trauma he suffered back in 2010 to 2013. George is limited in
his abilities to perform many tasks. For example, he has problems riding a bicycle due to lower back
pain. Sometimes, he cannot sleep due to back pain
George lives very modestly, eating beans, rice, potatoes and vegetables. He has refused food stamps
and government assistance many times because he wants to be a productive citizen in our community.
Many Christians have seen how modest George lives and have often given him things in kindness out
of love and respect for his service to others.
I take George to the grocery store after church on Sunday and have on occasion helped him buy
groceries, but he always pays me back, and is always willing to share his food. Monday through Friday,
George participates in physical therapy by medical recommendation.
Recently, George has been advised legally to apply for disability due to his deteriorating condition. I
am 65 years old and have gone through open heart surgery. I am not in a position to take care of
George if his condition becomes worse, and he loses more of his mobility. But I will always be there to
help George as long as I am able and of sound mind, God wiling.

(4.
Gene Forrest
2545 Woodbine Ave
Knoxville, Tn 37914
(865) 386-6109

WET

Washing Equipment of Tennessee
2100 Middlebrook Pike Knoxville, TN 37921 865.525.1515 Fax 865.52E04257 1.800.333.2146

November 28, 2017

000T F

Bill Haslam, Governor
State Capitol, 1st Floor
600 Charlotte Ave.
Nashville, TN 37243
Re: Clemency for exoneration of George .1 Raudenbush Ill
Dear Governor Haslam,

My wife, Debra, and I just celebrated 40 years of business as a leading distributor of
commercial pressure cleaning equipment here in Knoxville, which is our home. We have
enjoyed community service in addition to our business efforts, mostly in Christian outreach and
service. I serve on the board at KARM, am deeply involved in the CLC Leadership training, and
have a rich church life at Cedar Springs, which is where we came to know George Raudenbush.
We were introduced by a long-time friend, Gene Forest, when he joined our Sunday School
class, about four years ago. Since that time, we have consistently worshiped and studied
together, and have also worked together on many service and outreach projects, for our
refugee support efforts, andseveral other opportunities to help the poor. George has been
right there, often in a leading role, and often recruiting the help and resources necessary to
make it happen.
Debra and I know George to be a reliable man, and trustworthy with important things. We feel
that we know his character very well, as portrayed by his words and actions. We are greatly
concerned by the apparent inconsistencies of his case. In fact, we find it very difficult to believe
that he is guilty based upon the evidence which contradicts the testimony of the officer.
We therefore respectfully ask you to consider fully exonerating George Raudenbush of all
charges, which hascausecj him to suffer under the court system.
'7

Frank and Debra Smith

G

1P.
•
A Division of Smith. Distributing Company, Incorporated

a

ioi

Mii 08fir &

CONFIDENTIAL DOCUMENT
AFFIDAVIT

State of Tennessee
Knox County
Comes the Affiant, Grover D. Cowart, under penalties of perjury who, being duly sworn and competent,
affirms to wit as follows:
I was not allowed to give this information at either of George Raudenbush's trials.
I am a Black American male 51 years old. I met George at the Northeast Correctional Complex Annex
around January 27, 2012 we were cell mates and lived in the same pod in the old B section of the
annex until a judge signed an order overturning Georges charges sometime in December 2013. George
was supposed to be released after the judge signed the order but the state held him until January 13,
2014 before releasing him. I had never seen anyone not get released after the judge signs for that
person to be released and says they are innocent, there is something wrong with that.
When George first came to the Annex, the correctional officer on duty asked George if he wanted a cell
change because I am black and George is white. George said he had no prejudices against black
people. In prison, if your white you cell with a white person and if your Mexican you cell with a Mexican. I
resented that a white person wanted to cell with me because it can create a lot of problems in the prison
population. I couldn't get the Correctional officer on duty to have George moved to another cell, so we
became cell mates.
George turned out to be the nicest guy that I had ever met in prison and celled with. The warden created
a special G.E.D position for George so he could teach and help the men at the annex get their GED
diplomas. George was trusted by the Warden and the inmates, that never happens in prison. George
was very well respected by the inmates and convicts because he did not play games or run games on
people like most convicts do. That's why the predators did not pray on George in the Annex, he was
genuine in his faith as a Christian and helped many guys who had been locked up for many years.
George was for real. He encouraged and helped as many people as he could, that's why people
respected him.
Everyone in population knew George was not supposed to be there, George definitely is not the criminal
type believe me I have been around criminals most of my life, George stood out. When someone would
challenge George he always shared his faith and talked to that person and they would always back
down. I knew George was innocent by his actions. I had been locked up for 25 years and had seen all
the messed up games people play in prison, George was not that kind of guy he did not deserve to be in
prison like most of us were for crimes we had committed.
I had been incarcerated for the past 25 years for a crime I committed, have paid my debt to society for
and am a much better person today. George was one of the reasons I got released. He always was
positive and told me I would be released soon, if I just kept my eyes on God. I had a lot of years to go on
my sentence, George was right, I got released.
George did two things in prison, he helped and encouraged many men who had no hope and he worked
on his legal (appeal).
A young black gang banger named magic attacked George in the chow hall, Magic was sent back to his
pod. I know this young punk, he was always ready to fight to make a name for himself. George was sent
to "Unit 7" a notorious gang unit where guys got stabbed and killed every week. "Unit 7" was known as a
very active and violent Gang unit at that time. George was a minimum security inmate who had an
approved trustee status at the annex (could leave the prison during the day to work in the community).

Ms. Wills our RFS Instructor and Mr. Smith the Mental Health Counselor Called the captain and told him
George could not be placed in "Unit 7". George was put in "unit 7" and was brutally beaten and almost
killed by gang members. When the warden found out George had been attacked she had George sent
back to the annex. When I first saw George his face was swollen like a basketball and disfigured and I
did not recognize him at all. All the inmates knew Correctional officer Hardin sent George to "Unit 7" to
be punished or gotten rid of. George did not deserve this, everyone in our pod knew if you were sent to
"unit 7" you would have to fight or die. George did not fight because he doesn't believe in violence, the
gangs nearly killed him. Correctional officers are in constant fear of the gangs and their safety around
them. Why would they intentionally put George in a unit where they knew he would get attacked and
might be killed?
A lot of us bigger guys looked out for George because if you didn't fight you appeared weak and there
are lots of guys in prison who will take advantage of guys who don't fight. I have never seen George
start trouble with anyone. George was always true to his faith. George was one of the very few people in
prison who I believed was innocent. Who gets sentenced to prison for four years (a maximum sentence)
for a simple traffic violation (no weapons or drugs were involved)? There is something really wrong with
that. I have spent time with guys in prison who committed murder and only got 6 years and were out in 2
1/2 for good behavior. I have met thousands of guys in prison who have committed crimes, really bad
crimes and some of them did less time than George. Something is really wrong with a system that puts
guys like George in prison who have not committed crimes, who are innocent.
I

am available to talk to the Governor or the Board reviewing Georges Petition for Exoneration.

Further
Affiant rh Not,
Gr• er D. Cowart
(423) 213-0930
ACKNOWLEDGMENT
State of Tennsset. ,_
County of tsrz u?:„
, before me personally
.4y of
, 20 iS
On this
appeared
ro k.)
to me known to be the person described in and who executed the foregoing instrument, and
acknowledged that he/she executed the same as his/her free act and deed, for the purposes therein
set fo

1)

(Notary Public)
My Cipmissighfxpires
\•`‘,cs,c-kRe4
**** *" •
-/sTATE
OF
92.
12, TENNESsEE

MY COMMISSION EXPIRES
JANUARY 29, 2022

, 20

NOVARy :

"--•*.
4-..
4, C9(
CcO
,

CONFIDENTIAL DOCUMENT

Yahoo Mail - Brian Millsaps

https://mail.yahoo.com/d/folders/l/messages/ANzNEUw14Ca...

Brian Millsaps
From: landonhickey@banksandjones.com
To:

standfast4truth@yahoo.com

Date: Tuesday, February 2, 2021, 3:07 PM EST

Dear George:

It was great speaking with you earlier today. I had attempted to contact your attorney Steve Merritt prior to
contacting you but got no response. If your attorney agrees, I would appreciate you all providing me with any and all
official reports, court filings, news articles, disciplinary reports, etc. that reflect the character and/or prior bad acts by
Brian Millsaps. Such evidence may greatly help our civil case against him and the Monroe Co. Sheriff's Office
regarding the accident he caused last summer while leading a high speed case at speeds of 128 MPH all to stop
someone for a misdemeanor moving violation. This accident resulted in the death of Joseph Moses and the maiming
of his wife, Sierra Moses. I greatly appreciate your assistance in this matter. If you have any questions, concerns, or
need to coordinate the delivery of such documentation, please do not hesitate to contact me.

Very truly yours,

Landon M. Hickey (BPR# 037143)
LAW OFFICES OF BANKS & JONES
2125 Middlebrook Pike
Knoxville, TN 37921
Ph: (865) 546-2141
Fax: (865) 546-5777

Virus-free. www.avast.com

1 of 1

2/10/2021, 9:10 PM

